The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Daniel R. Pearson
                                        Shara L. Aranoff
                                        Dean A. Pinkert
                                        David S. Johanson
                                        Meredith M. Broadbent
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436


November 9, 2012                                                           OIG-KK-020

Chairman Williamson:

This memorandum transmits the Independent Auditor’s Report on Internal Control (OIG-AR-13-
04) associated with the audit of the Commission’s financial statements for fiscal year 2012.
Your comments on the draft have been included in their entirety as an appendix to the report.

We contracted with the independent certified public accounting firm, Castro & Company LLC,
to conduct the financial statement audit. The contract required that the audit be conducted in
accordance with U.S. generally accepted government auditing standards and these auditing
standards require a report on Internal Control to be produced as part of the audit.

This report contains three new recommendations for corrective action. In the next 30 days,
please provide me with your management decisions describing the specific actions that you will
take to implement each recommendation.

Throughout the audit and at its conclusion, my office followed procedures and conducted a final
review that included monitoring the performance of the audit, reviewing Castro & Company’s
report and related documentation, and making inquiries of its representatives. Our final review
disclosed no instances where Castro & Company did not comply, in all material respects, with
the U.S. generally accepted government auditing standards; however, this final review cannot be
construed as an audit, and is not intended to enable us to express, and we do not express, any
opinion on the Commission’s internal control. Castro and Company is solely responsible for this
report dated November 8, 2012, and the conclusions expressed in the report.

Thank you for the courtesies extended to the auditors and my staff during this audit.

Sincerely,



Philip M. Heneghan
Inspector General
                                                                                    2121 Eisenhower Ave.
                                                                                    Suite 606
                                                                                    Alexandria, VA 22314
                                                                                    Phone: 703.229.4440
                                                                                    Fax: 703.859.7603
                                                                                    www.castroco.com
                        Independent Auditor’s Report on Internal Control


Inspector General
U.S. International Trade Commission

We have audited the financial statements of the U.S. International Trade Commission (ITC) as of
and for the year ended September 30, 2012, and have issued our report thereon dated November 8,
2012.

In planning and performing our work, we considered ITC's internal control over financial reporting
by obtaining an understanding of the design effectiveness of ITC's internal control, determining
whether controls had been placed in operation, assessing control risk, and performing tests of ITC's
controls as a basis for designing our auditing procedures for the purpose of expressing our opinion
on the financial statements, but not to express an opinion on the effectiveness of ITC's internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
ITC's internal control over financial reporting. We limited our internal control testing to those
controls necessary to achieve the objectives described in the Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended. We
did not test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers' Financial Integrity Act of 1982 (FMFIA), such as those controls relevant to ensuring
efficient operations.

Our consideration of internal control over financial reporting was for the limited purposes described
in the preceding paragraph and would not necessarily identify all deficiencies in internal control over
financial reporting that might be significant deficiencies or material weaknesses. However, as
discussed below, we identified certain deficiencies in internal control over financial reporting that
we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a deficiency in internal control, or a
combination of deficiencies, that adversely affects the entity's ability to initiate, authorize, record,
process, or report financial data reliably in accordance with U.S. generally accepted accounting
principles (GAAP) such that there is more than a remote likelihood that a misstatement of the
entity's financial statements that is more than inconsequential will not be prevented or detected.

A material weakness is a significant deficiency, or combination of significant deficiencies, that result
in a more than remote likelihood that a material misstatement of the financial statements will not be
prevented or detected.
Independent Auditor’s Report on Internal Control
Page 3


                                     MATERIAL WEAKNESS



I.       Inadequate Controls over Undelivered Orders (i.e., Open Obligations) Accounts
         Payable, and Expenditures (Repeat Condition, Modified)

Even though improvements were made over the prior fiscal year (FY), sufficient documentation was
not provided to support the validity of certain Undelivered Orders (UDO) balances (i.e. obligating
documents, invoices), including accruals not being properly recorded. As a result of material
misstatements, we were unable to rely on our interim testing as of June 30, 2012 for the UDO,
accounts payable (AP), and expenditures balances because of a significant number of testing
exceptions, which required us to perform expanded testing related to all UDO’s as of September 30,
2012. However, we were able to determine that the FY 2012 financial statements are fairly
presented because ITC performed a significant data clean-up right before year-end, but the controls
were not in place for the majority of the fiscal year.

During our testing, we noted multiple issues surrounding the accounting for UDO, AP, and
expenditures as summarized below.

     x   ITC’s obligated balance recorded in the general ledger (GL) was not adequately supported:
         certain documentation was not provided; documentation on file did not agree with amounts
         recognized in the GL (invoice amounts differed from invoice amounts recognized in the GL,
         obligation amounts differed from obligations recognized in the GL); and modifications on
         file were not posted to the GL. For example:
            x   ITC recorded a modification in the GL without a valid obligating document.
                Management discovered this error during the year-end open obligations review, but
                made the decision not to correct as of September 30, 2012 in order to avoid increasing
                its surplus at the end of FY 2012. Creating obligations without authorized obligating
                documentation is a control deficiency that could lead to an Anti-Deficiency Act
                violation.

     x   Accruals were not properly recorded throughout the fiscal year. Because ITC does not
         record accruals at the transaction level, in order to determine the amount to record as AP
         through Journal Vouchers (JVs), ITC performed a quarterly review of open obligations
         throughout the fiscal year. The review consisted of sending the open obligations report to
         each Contracting Officer’s Representative (COR) in order for the COR to review and state
         whether the obligations were valid. If the obligation was valid, the COR should have
         provided an amount to accrue for AP. However, during our UDO testing, we noted that ITC
         did not always have a detailed logical methodology to accrue expenses for goods/services
         that were received but not paid. For example:
            x   Accruals were not recorded as of June 30, 2012 for obligations related to the
                leasehold improvement for the build-out of the second floor at the ITC headquarters
                building, even though construction was substantially completed as of June 30, 2012.
Independent Auditor’s Report on Internal Control
Page 4


               As a result, the AP and Construction-In-Progress (CIP) balances were materially
               understated, and the UDO balance was materially overstated on the third quarter
               financial statements submitted to OMB.
           x   Certain accruals were not supported by proper documentation such as an estimate of
               services received based on past services received, and paid. Some CORs did not
               include the methodology used for the accruals; even though this information was
               required. In addition, some CORs provided accruals estimates with no clear
               documented explanation on the methodology used to record the accruals. There was
               no documentation to clearly support finance’s review and approval to ensure
               explanations used by COR’s for accrual methodologies used and other needed
               information were included as required, or that methodologies used for accruals were
               clearly explained, reasonable and supported by adequate documentation,
           x   Certain accruals recorded by finance were incorrect, as methodologies used by the
               COR contained accruals for services for which invoices were received subsequent to
               the accrual calculation and recognized in the GL, but for which the accrual was not
               adjusted causing overstatements of AP and understatements of the UDO. Review of
               subsequent invoices received and approved by the COR, and booked by finance was
               inadequate as the over accrual was not caught and corrected.
           x   For certain obligations, the COR did not submit an amount to be accrued because
               invoices had not been received; however, services had been received by ITC and
               therefore an accrual should have been recorded. There was no documentation to
               clearly support finance’s detailed review of the accrual process to ensure accruals
               were properly recognized when goods and services were received.

In the prior fiscal year, we recommended to ITC management to reconcile all open obligation folders
to the general ledger. We reviewed ITC Management’s Decision regarding this recommendation,
and even though ITC management made significant improvements to the procurement folders, the
balances in the procurement folders were not properly reconciled to the general ledger, evidenced by
certain GL posting errors reported in the prior year’s audit that were not corrected during FY 2012.

Additionally, in the prior fiscal year, we recommended to ITC management to establish and
implement quality control procedures for the open obligation reviews. We reviewed ITC
Management’s Decision regarding this recommendation, and determined that ITC did not adequately
document management’s quality control procedures for open obligation reviews and there continued
to be errors in the accruals proposed by the COR’s. Controls were not adequate to ensure the
amount recorded as an AP through the accrual JV was reasonable. There was no documentation to
clearly support finance’s review and approval of the accrual spreadsheet to ensure COR’s properly
recognized accruals when goods and services were received, methodologies used for accruals were
clearly explained, reasonable and supported by adequate documentation, explanations for
methodologies used and other needed information were included as required.

Finally, in the prior fiscal year, we recommended to ITC management to post financial transactions,
including adjustments at the detailed general ledger transaction level, including accruals,
deobligations and refunds. We reviewed ITC Management’s Decision regarding this
Independent Auditor’s Report on Internal Control
Page 5


recommendation, and determined that the manual posting of accruals continued to cause significant
testing errors. By not recording accruals at the GL transaction level, some of the manual accruals
booked by ITC using the open obligation review contained accruals for services for which invoices
were received subsequent to the accrual calculation and recognized in the GL, but for which the
accrual was not adjusted causing overstatements of AP and understatements of the obligations.

Government Accountability Office’s (GAO’s) Standards for Internal Control in the Federal
Government states:

       Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination. The
       documentation should appear in management directives, administrative policies, or
       operating manuals and may be in paper or electronic form. All documentation and
       records should be properly managed and maintained.

The Statement of Federal Financial Accounting Standards (SFFAS) No. 1, Accounting for Selected
Assets and Liabilities states:

       Accounts payable are amounts owed by a Federal entity for goods and services
       received from, progress in contract performance made by, and rents due to other
       entities…When an entity accepts title to goods, whether the goods are delivered or in
       transit, the entity should recognize a liability for the unpaid amount of the goods. If
       invoices for those goods are not available when financial statements are prepared, the
       amounts owed should be estimated.

By not performing an accurate review of UDOs, ITC’s obligations, AP and net position were
materially misstated as of June 30, 2012. In addition, as noted above, ITC did not properly record
accruals throughout the majority of the fiscal year when goods and services were received, or
accruals were incorrectly calculated.

Recommendations:

We made eight recommendations in the prior fiscal year related to this issue. Six of those
recommendations were not implemented as of September 30, 2012; therefore, additional
recommendations will not be issued related to this Material Weakness.
Independent Auditor’s Report on Internal Control
Page 6


                                     SIGNIFICANT DEFICIENCY



II.       Inadequate Internal Controls over Financial Reporting (Repeat Condition, Modified)

During FY 2012, ITC filled certain key positions, including hiring a Chief Financial Officer (CFO)
and a systems accountant, and created a CFO Office. During testing of ITC’s financial reporting, we
noted that improvements were made over the prior year in producing its quarterly financial
statements and related reconciliations. However, during our review of ITC's financial statement and
reconciliation preparation process, we identified certain issues, as summarized below, impacting
ITC's ability to effectively accumulate, assemble, and analyze information presented in its financial
statements in accordance with applicable guidance. Specifically, we noted the following:

      x   ITC did not prepare the Statement of Budgetary Resources (SBR) in compliance with the
          updated required format in the revised OMB Circular No. A-136, Financial Reporting
          Requirements, in the original year-end draft financial statements. ITC made the necessary
          correction to the final issued financial statements.

      x   A significant number of transactions were processed through the use of manual JVs
          throughout the fiscal year, instead of posting the adjustments at the detailed transaction level
          in the general ledger. ITC posted a total of 76 JVs during FY 2012. Although manual journal
          vouchers in and of themselves are not considered an issue, they do increase the risk for
          errors. For example, ITC prepared a JV with documentation to accrue for training and travel
          incurred as of September 30, 2012. However, the amount related to training was erroneously
          omitted from the JV total posted.

      x   ITC did not report an updated amount for the unfunded and actuarial Federal Employees
          Compensation Act (FECA) liability for FY 2012 on the original year-end draft financial
          statements. ITC erroneously reported the same amount from the prior fiscal year. ITC made
          the necessary correction to the final issued financial statements.

      x   Reconciliations between the subsidiary listings and the general ledger on key financial
          accounts were not well documented, and did not always contain the signatures evidencing the
          review and approval for the reconciliation throughout the majority of the fiscal year.

These errors occurred because of ineffective management reviews and approvals. The fact that the
significant deficiency related to the financial reporting was not adequately corrected, but ITC
management considered its Management Decision complete relating to the prior year’s internal
control report recommendation, continues to highlight that ITC still needs to strengthen its controls
and ensure management personnel with the appropriate skill sets and expertise are responsible for
the financial management accounting and reporting functions.

A major objective of internal control is to ensure the integrity of the underlying accounting data
supporting the financial statements. A key control is performing reconciliations of significant
account balances. An adequate reconciliation contains evidence of management’s review and
Independent Auditor’s Report on Internal Control
Page 7


approval which provides assurance that transactions have been properly processed and recorded in
the accounting records. Another key control is performing detailed management review and approval
of transactions recorded in the financial system, and of financial reports.

GAO’s Standards for Internal Control in the Federal Government states:

       Internal control should generally be designed to assure that ongoing monitoring
       occurs in the course of normal operations. It is performed continually and is ingrained
       in the agency’s operations. It includes regular management and supervisory activities,
       comparisons, reconciliations, and other actions people take in performing their duties.
       Internal control and all transactions and other significant events need to be clearly
       documented, and the documentation should be readily available for examination.

       Control activities are an integral part of an entity’s planning, implementing,
       reviewing, and accountability for stewardship of government resources and achieving
       effective results…They include a wide range of diverse activities such as approvals,
       authorizations, verifications, reconciliations, performance reviews, maintenance of
       security, and the creation and maintenance of related records which provide evidence
       of execution of the activities as well as appropriate documentation.

       Management sets the objectives, puts the control mechanisms and activities in place,
       and monitors and evaluates the control. However, all personnel in the organization
       play important roles in making it happen. All personnel need to possess and maintain
       a level of competence that allows them to accomplish their assigned duties, as well as
       understand the importance of developing and implementing good internal control.
       Management needs to identify appropriate knowledge and skills needed for various
       jobs and provide needed training, as well as candid and constructive counseling, and
       performance appraisals.

In the prior fiscal year, we recommended to ITC to document quality control procedures performed
related to the review and approval of financial statements and related account reconciliations. We
reviewed ITC Management’s Decision regarding this recommendation, and even though ITC
management created policies, the policies were not consistent and not always followed.

Effective internal control provides assurance that significant weaknesses in the design or operation
of internal control, that could adversely affect the ITC’s ability to meet its objectives, would be
prevented or detected in a timely manner. However, based on the issues noted above, ITC
management needs to strengthen its internal control surrounding financial management to ensure
compliance with applicable laws and regulations throughout the year.

By not adequately performing management functions specific to monitoring, analysis, oversight, and
reconciliations, discrepancies may exist but go undetected and uncorrected; thereby causing the
financial information to be misstated. Effective management oversight greatly increases ITC’s
ability to proactively identify and resolve issues that could result in misstatements in financial
accounting and reporting records.
Independent Auditor’s Report on Internal Control
Page 8


Recommendations

We recommend that ITC management:

   1. Perform a detailed review of all manual JVs to determine which JVs should be eliminated by
      posting at the detailed general ledger transaction level.

   2. Revise its procedures to require management’s review and approval of quarterly financial
      statements are clearly documented.

   3. Revise its procedures to require management’s review and approval of all account
      reconciliations are clearly documented.
         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436

November 8, 2012

Thomas Castro, Partner
Castro & Company, LLC
2121 Eisenhower Avenue, Suite 606
Alexandria, VA 22314

The Audit Report on Internal Control identified one material weakness and a significant deficiency.
I concur with your assessment that in the financial management area the Commission has inadequate
controls over undelivered orders, accounts payable, and expenditures. I also concur that we have to
enhance our controls over financial reporting.

The Commission has made significant progress in addressing financial management deficiencies and
challenges over the past two years. We have eliminated the material weaknesses reported in fiscal
year 2011 that related to the procurement process and insufficient resources and personnel with
appropriate skill sets. For example, the newly formed Office of the Chief Financial Officer is now
staffed with highly skilled personnel in Procurement, Finance, and Budget. In addition, our
comprehensive strategy, being implemented under our new Chief Financial Officer, has resulted in
significant progress in addressing control weaknesses in undelivered orders and financial reporting.

We recognize that we have much more to do to change the financial management culture within the
Commission and will continue to aggressively address each of your recommendations.

Sincerely,




Irving A. Williamson

cc: Philip M. Heneghan
    Inspector General
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
